March 31, 2008

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

SUBJECT: Application Controls Review of the Electronic
         Verification System (Report Number CRR-AR-08-003)

This report presents the results of our audit of application controls over the Postal
Service’s Electronic Verification System (eVS) (Project 07RG006IS000). The Postal
Accountability and Enhancement Act of 2006 (the Postal Act of 2006) requires the U.S.
Postal Service Office of Inspector General (OIG) to audit data collection systems and
procedures the Postal Service uses in their ratemaking process. We initiated this audit
in response to those requirements. See Appendix A for additional information about this
audit.

Conclusion

The Postal Service has made advances in strengthening application controls in the
eVS, periodically implements new rate case requirements, and improves systems
functionality and controls on an incremental basis. However, we identified data input
validation and sampling and reconciliation procedures the agency could strengthen to
further protect mailing revenues, attract additional customers to the eVS, and preserve
customer goodwill and the Postal Service brand. We will report preservation of
customer goodwill and the Postal Service brand as non-monetary impacts in our
Semiannual Report to Congress.

Data Input Validation

Incomplete data validation rules allow mailings that do not meet criteria for destination
entry discounts to be processed through the eVS. The Product Tracking System (PTS),
which initially receives the electronic manifest file from the mailer, treats certain error
conditions as warnings, allowing the records to be processed instead of being rejected
for correction and retransmission. Incorrect edit processing can lead to erroneous
postage calculations and additional expense to deliver the mail, resulting in loss of
revenue. See Appendix B for additional information about data input validation issues.
Application Controls Review of the                                                              CRR-AR-08-003
 Electronic Verification System


We recommended the Vice President, Customer Service, direct the Manager, Marketing
Technology and Channel Management, to:

1.       Reevaluate all warning messages in the Product Tracking System to determine
         whether they impact the postage calculation.

2.       Strengthen the edit rules in the Product Tracking System to enforce the
         requirements for destination entry discounts.

Comprehensive Sampling Procedures

The Postal Service needs to strengthen sampling and verification procedures at mail
receiving facilities. Guidelines allow sampling data to be captured for a mailer at any
time during a 7-day period in either one or several sessions. Additionally, management
discontinued sampling conducted by business mail entry personnel at destination
delivery units and began relying on sampling conducted by Statistical Programs
personnel. However, these personnel are not onsite every day at these facilities.
Finally, there are no established procedures to address delinquent sampling.1 The
potential for non-uniform sampling at acceptance facilities creates opportunities for
mailers to ship mailpieces that do not qualify for destination entry discount rates. See
Appendix B for additional information about sampling issues.

We recommended the Vice President, Customer Service, direct the Manager, Marketing
Technology and Channel Management, to:

3.      Develop and implement formal procedures for sampling of Electronic Verification
        System packages at all appropriate postal units, including destination delivery units.

4.      Track and monitor delinquent sampling to determine the adequacy and timeliness
        of sampling of mailings.

Reconciliation Procedures

Business mailers we interviewed could not reconcile monthly billings from the Postal
Service to the electronic manifests they submit to the agency for the same period.
Existing summaries, error reports, and postage statements did not provide sufficient
detail for mailers to ascertain postal billings. The inability to reconcile billing statements
could prevent customers from adopting the eVS for their mailing needs and impact
customer goodwill and the Postal Service brand. See Appendix B for additional
information about reconciliation procedures.




1
    When mail arrives at a scheduled entry facility but no test data is collected, the test is considered delinquent.


                                                              2
Application Controls Review of the                                   CRR-AR-08-003
 Electronic Verification System


We recommended the Vice President, Customer Service, direct the Manager, Marketing
Technology and Channel Management, to:

   5. Develop and implement a monthly reconciliation report that allows business
      customers to validate postal billings.

Commingling of Test and Production Transactions

Data transmitted by a pilot mailer during parallel testing was commingled with
production data in the eVS database. The Postal Service uses data entered from hard
copy manifests submitted by this mailer for billing purposes and uses data transmitted
electronically into the database for testing purposes. The existing procedures do not
clearly distinguish data used for parallel testing from production data. The Postal
Service did not implement a separate testing environment to support mailers during the
pilot phase. Combining test data with production data could result in billing errors and
impact the integrity of data used in corporate decision making. See Appendix B for
additional information about commingling test and production transactions.

We recommended the Vice President, Customer Service, direct the Manager, Marketing
Technology and Channel Management, to:

   6. Delineate parallel data used for pilot testing from production data as an interim
      solution.

   7. Work with Information Technology to establish a separate test environment to
      support pilot mailers.

Management’s Comments

Management agreed with our findings and recommendations and will implement
corrective actions for recommendations 1 through 6 by September 30, 2009.
Management also agreed with the intent of recommendation 7, but stated they did not
have the resources to fully implement a separate test environment. Management also
agreed to the non-monetary impacts identified in this audit. Management’s comments,
in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. The OIG considers recommendations 1, 2, 3, and 5 significant, and therefore
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the follow-up tracking system until the OIG provides written
confirmation the recommendations can be closed.


                                            3
Application Controls Review of the                                  CRR-AR-08-003
 Electronic Verification System


We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Paul Kuennen,
Director, Cost, Revenue and Rates, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments


cc: H. Glen Walker
    Harold E. Stark
    Pritha N. Mehra
    Mark A. Mittelman
    Katherine S. Banks




                                           4
Application Controls Review of the                                      CRR-AR-08-003
 Electronic Verification System

                      APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The eVS, a component of the PostalOne! system, allows high-volume package mailers
to use electronic manifest forms instead of paper documents to document and pay
postage and special service fees. The eVS is designed to make it easy for high-volume
package mailers to take advantage of destination entry rates. Mailers prepare manifest
files in electronic format for transmission to the Postal Service through the Internet,
while mail packages are delivered at destination entry postal facilities.

The PTS, an existing system used for delivery confirmation and signature confirmation
services, initially receives the electronic manifest the mailer transmits. The PTS
performs a series of data edits based on edit rules implemented in the system. As part
of the edit and validation process, the PTS generates a Confirmation, Error, and
Warning file. This file contains information about valid records accepted for processing,
records that do not meet all criteria but are nevertheless accepted and forwarded for
further processing with a warning message, and records that are rejected for error
conditions. The PTS validates 130 standard error and warning conditions, producing
warning or error messages depending on the condition of data records in the manifest
file. For all mail classes and categories, the PTS validates a combined total of 1,394
potential warning and error conditions. Of this total, 572 are error conditions resulting in
records being rejected for subsequent correction and resubmission. There are 822
warnings where the records are forwarded for further processing by the eVS system,
although the records may not meet all processing criteria to qualify for destination entry
discounts.

The Postal Service collects sampling data at destination mail facilities such as
destination bulk mail centers, destination auxiliary service facilities, destination sectional
center facilities, and destination delivery units. Postal clerks at receiving facilities
examine sample packages to determine the accuracy of mail preparation and postage.
The Electronic Verification System Intelligent Mail Device User Guide, version 1.3,
dated May 2007, gives detailed sampling procedures. According to the guide, business
mail entry personnel at receiving facilities should randomly sample at least 100 pieces
of eVS mail in each 7-day period for each mailer. The sampling data is uploaded in the
eVS, which compares the data against the manifest files to determine the accuracy of
postage calculation and to identify unmanifested mail.

The eVS calculates postage payments and adjustments for unmanifested and
misshipped mail. The eVS also calculates adjustments for discrepancies identified
during sampling and produces error reports showing calculations for unmanifested and
misshipped mail and sampling adjustments.

The Postal Service electronically deducts postage for the mailings from mailers’
PostalOne! postage payment accounts. Mailers can review online statements to see
the results of postage samplings. Mailers can also monitor the quality of their mail, take

                                              5
Application Controls Review of the                                   CRR-AR-08-003
 Electronic Verification System

preventive measures to ensure discrepancies do not recur, and avoid future postage
adjustments.

Currently, nine customers use the production system and one customer uses the
system as a pilot. In fiscal year (FY) 2007, these mailers delivered 84 million mailpieces
totaling $112 million in revenue.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the effectiveness of application controls over the eVS. To
accomplish our objective, we reviewed system documentation and architecture and
interviewed the portfolio manager and system owner. We studied the data file structure
of the electronic manifest file, assessed the transaction flows within the system, and
evaluated existing controls. We assessed processing logic for manifest processing,
sample reconciliation, and processing of unmanifested mail. We visited a business mail
entry unit, observed eVS mail acceptance and sampling, and interviewed personnel.
We conducted site visits to two eVS customers and obtained feedback and information
about their file preparation and quality control procedures. We analyzed edit rules
implemented in the system; electronic data files submitted by eVS mailers; and
Confirmation, Error, and Warning reports produced by the system. We compared data
records from input files to output produced by the eVS for the same records. For
selected customers, we evaluated error report generation and transmission at various
stages, error correction, and reconciliation efforts.

We conducted this performance audit from April 2007 through March 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on March 4, 2008, and
included their comments where appropriate.

We used manual and automated processes to assess the reliability of
computer-generated data used for our analysis and we concluded that the data were
sufficiently reliable to support the audit objective.

PRIOR AUDIT COVERAGE

The OIG issued a report titled Security Review of the Electronic Verification System
(Report Number CRR-AR-08-002) on February 12, 2008. The report cited weaknesses
both in the primary external file transfer method the Postal Service uses to receive
electronic manifests from major mailers and in user authentication. Management
agreed with two recommendations to strengthen file transport security and has
initiatives in progress, completed, or planned addressing the issue. Management did

                                            6
Application Controls Review of the                               CRR-AR-08-003
 Electronic Verification System

not agree with two other recommendations to strengthen user authentication and stated
they would accept the risk associated with the existing user access controls.




                                          7
Application Controls Review of the                                                       CRR-AR-08-003
 Electronic Verification System


                                APPENDIX B: DETAILED ANALYSIS

Overall Application Controls

The Postal Service has made advances in strengthening application controls in the
eVS. The Postal Service periodically implements new rate case requirements and
improves systems functionality and controls on an incremental basis.

The Postal Service can further strengthen input validation routines and mail acceptance
guidance and procedures to ensure that mailings qualify for the discounts they receive.
Development of input reconciliation reports could assist mailers in transitioning to the
eVS. Finally, separating parallel test data from production data would assist in
preserving the integrity of data used in postal ratemaking.

Because management gave implementing recent rate case requirements a higher
priority, they could not devote resources to implementing all the required controls in a
timely manner. Strengthening data input validation, developing comprehensive
sampling guidance and procedures, improving reconciliation procedures, and
separating parallel test data from production data could further protect mailing revenue,
attract additional customers to the eVS, and preserve customer goodwill and the Postal
Service brand.

Data Input Validation

Incomplete data validation rules allow mailings that do not meet criteria2 for eVS
destination entry rates to be processed through the eVS. The PTS, which initially
receives the electronic manifest file from the mailer, treats certain error conditions as
warnings, allowing the records to be processed instead of rejecting them for subsequent
correction and retransmission. This occurs because the edit rules implemented in the
PTS are meant for validating mail for delivery and signature confirmation purposes and
not for eVS destination rate validation. Best practices call for performing routine data
verifications or edit checks as close to the point of origin as possible. Incorrect edit
processing can result in erroneous postage calculations and additional expense to
deliver the mail, resulting in loss of revenue. Strengthening input controls could
preserve customer goodwill and protect the Postal Service brand.

We analyzed approximately 48,000 records a major mailer submitted through the eVS
and that found more than 3 percent of records contained warnings and were forwarded
to the eVS for further processing.3 These warnings included invalid destination Zip
Codes™, destination rate indicators that did not match entry facilities, and destination


2
  Publication 205, Electronic Verification System Business and Technical Guide, Appendix F, dated August 16, 2007,
gives the requirements for preparing destination entry mail.
3
  During the 12 months ended November 30, 2007, this mailer submitted 6.6 million records totaling $10.6 million in
postage.


                                                         8
Application Controls Review of the                                     CRR-AR-08-003
 Electronic Verification System

Zip Codes outside the service area of the delivery unit. These warnings could result in
incorrect postage as follows:

   •   The data file format requires a valid Zip Code in the detail record of the data file.
       The PTS validates the Zip Code with the Address Management System. If the
       Zip Code is invalid, the PTS replaces it with zeros and generates a warning
       message. However, without a valid Zip Code, mail processing and delivery will
       require manual intervention by a mail processing clerk, causing an additional
       processing expense that is not considered in destination entry discounts.

   •   Different discount rates apply to destination facilities – bulk mail centers, delivery
       units, and sectional center facilities – which all have different destination rate
       indicators. In some locations, these acceptance facilities with different
       destination rate indicators share the same Zip Code. However, the system is
       able to validate only one acceptance facility type/destination rate indicator pairing
       for each Zip Code. Mailings for all other facility type/destination rate pairings for
       that Zip Code receive a warning message and the mail is processed. Since the
       mailing is not rejected, the mailer could be claiming a larger discount than they
       are entitled to claim.

   •   When eVS mail packages are delivered at a mail acceptance facility which does
       not service the destination areas, the Postal Service should charge the mailer
       extra postage for misshipment of mailpieces. Our analysis showed that records
       that generated this error were not assessed misshipment charges. Management
       informed us they took action and corrected this issue in their software release on
       December 16, 2007. However, because our testing was complete, we were
       unable to validate this.

Reevaluating warning conditions to ensure that all conditions that can result in incorrect
postage are reclassified as errors will necessitate that the mailer correct and retransmit
the records. This could increase the accuracy of postage paid. Updating the eVS file
format to include additional Zip Codes to correctly designate acceptance facilities that
share the same Zip Code will also help to ensure accurate postage.

Comprehensive Sampling Procedures

Because of inadequate sampling procedures at mail receiving facilities, not all mail
packages had an equal probability of being selected for sampling. High-volume mailers
delivered mail packages on a daily basis to receiving facilities. The guidelines for
sampling allowed the Postal Service to capture sampling data for a mailer at any time
during a 7-day period, either in one session or in several sessions, as long as at least
100 pieces were included in the sample. Marketing established the threshold of at least
100 pieces for sample size because it believed sampling 100 pieces would provide the
necessary coverage to determine the accuracy of eVS mailings. The procedures
allowed receiving personnel to complete the sampling requirement for a mailer by
examining at least 100 mailpieces from a single delivery on a single day rather than

                                              9
Application Controls Review of the                                    CRR-AR-08-003
 Electronic Verification System

sampling mailpieces from deliveries for each day during the 7-day period. This could
prevent the Postal Service from finding a mailer to have inconsistent mail packaging
during the remainder of the 7-day period. The potential for a mailer to exploit this
situation is high, since a mailer can track the sampling trend and plan the mailings to
include packages that do not qualify for eVS destination entry rates.

In March 2005, the Postal Service discontinued sampling conducted at destination
delivery units by business mail entry personnel and started relying on the sampling
conducted by Statistical Programs personnel, who sample eVS packages for
ratemaking-related estimations. However, their verifications cover only a small portion
of eVS shipping because they sample destination delivery units only when those
facilities appear in their sample selection and only when the data collection personnel
actually visit those facilities. Therefore, sampling that Statistical Programs personnel
conduct may not provide sufficient coverage to ensure the accuracy of eVS mailings at
destination delivery units.

According to the Electronic Verification System Intelligent Mail Device User Guide,
when the mail arrives at a scheduled destination entry facility but no test data is
collected, the test is considered delinquent. According to the guide, management
should contact the district office when the number of delinquent tests reaches an
unacceptable level and a national eVS coordinator should track all delinquent tests.
However, established procedures do not address delinquent sampling or recording
delinquent tests. The eVS Program Manager told us that no one at the district office
level tracked delinquent tests and management had not designated an eVS coordinator
to track the delinquent tests on a nationwide basis.

Sampling eVS packages is the primary method for ensuring compliance by mailers in
packaging their mail. Sampling procedures that uniformly cover all shipments and all
acceptance facilities will ensure the Postal Service will be able to collect all revenues.
Management informed us that they are developing more detailed sampling procedures.

Reconciliation Procedures

Business mailers we interviewed cannot reconcile monthly billings from the Postal
Service to the electronic manifests they submit to the agency for the same period.
Because implementing rate case requirements takes a higher priority, the Postal
Service did not devote sufficient resources to develop an adequate reconciliation
solution. Best practices require system outputs to be balanced to relevant control totals
and transactions failing edit and validation routines should be subject to appropriate
follow-up until errors are corrected. However, existing summaries, error reports, and
postage statements do not provide sufficient detail for mailers to evaluate and reconcile
postal billings, hampering effective use of the eVS.

Mailers we interviewed are often unable to reconcile 1) the postage they calculate on
manifests for a period (for example, 1 month) to the amounts actually charged by the
Postal Service on the same manifests and 2) total mailpieces they sent for a period to

                                            10
Application Controls Review of the                                       CRR-AR-08-003
 Electronic Verification System

the total amount charged by the Postal Service during the same period. These mailers
need to reconcile this data for their own internal control purposes, such as meeting
requirements of the Sarbanes-Oxley Act of 2002. One mailer informed us that the
inability to reconcile their mailing data remains as a significant deficiency in their internal
control structure. Another mailer using the eVS on a pilot basis stated they are reluctant
to adopt eVS for all of their mailings because of their inability to reconcile their mailing
data to Postal Service billings.

To assist mailers in reconciling their data, the eVS provides several online reports as
well as the ability to download mail and billing data. However, factors such as
adjustments and timing differences make the reconciliation process difficult. Potential
factors that would hinder mailers from reconciling their balances to the Postal Service’s
include:

   •   Records the PTS rejects.
   •   Records the eVS rejects.
   •   Postal Service adjustments for differences identified during sampling.
   •   Postal Service adjustments for misshipped items.
   •   Postage Adjustment Factor the Postal Service charges.
   •   End-of-month shipments the Postal Service receives but for which they have not
       received manifests.
   •   Mail and manifest received during the last days of the current month, but with
       incomplete processing in the current month.
   •   Mail and manifest received during the last days of the previous month but
       processed and billed in the current month, including postage, sampling
       adjustments, and adjustments for misshipped items.
   •   Permit fees charged during the current month.

Developing a reconciliation solution based on a model that takes into account all
potential reconciling items and providing the ability for customers to run automated
reconciliation reports could enable mailers to correctly reconcile their data. This will
promote customer goodwill, convince more mailers to use the system, and preserve the
Postal Service brand.

Commingling of Test and Production Transactions

We determined that data a mailer transmits during parallel testing was commingled with
production data in the eVS database. The Postal Service did not implement a separate
testing environment to support mailers during the pilot phase. The mailer using the eVS
as a pilot sends packages through the eVS to determine its suitability for their long-term
business needs. The Postal Service uses data entered from hard copy manifests this
mailer submits for billing purposes, while data transmitted electronically into the
database is used for testing purposes. However, the existing procedures do not clearly
distinguish data used for parallel testing from production data.



                                              11
Application Controls Review of the                                 CRR-AR-08-003
 Electronic Verification System

Best practices call for management to store test data separately from production data.
Combining test data with production data could result in billing errors or impact the
integrity of data used in corporate decision making. Management informed us they
have implemented a separate test environment for internal customer acceptance testing
and plan to implement a certification environment for business mailers. They further
stated they would establish procedures to demarcate parallel test data sent
electronically into the production database from data entered from hard copy manifests
used for billing purposes. Management has also initiated a hardware upgrade that
would add additional capabilities and strengthen controls over test and production data.




                                           12
Application Controls Review of the                   CRR-AR-08-003
 Electronic Verification System

                     APPENDIX C: MANAGEMENT’S COMMENTS




                                     13
Application Controls Review of the        CRR-AR-08-003
 Electronic Verification System




                                     14
Application Controls Review of the        CRR-AR-08-003
 Electronic Verification System




                                     15
